July 30, 2009

THOMAS G. DAY
SENIOR VICE PRESIDENT, INTELLIGENT MAIL AND ADDRESS QUALITY

DAVID E. WILLIAMS
ACTING VICE PRESIDENT, ENGINEERING

JORDAN M. SMALL
ACTING VICE PRESIDENT, NETWORK OPERATIONS

LINDA J. WELCH
ACTING VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

SUBJECT: Audit Report – Address Quality (Report Number IS-AR-09-007)

This report presents the results of our self-initiated audit of Address Quality (Project
Number 09RG004IS000). Our objective was to evaluate Undeliverable As Addressed
(UAA) mail for the purpose of identifying primary contributors and causes. This review
focused on internal contributors and causes of UAA mail associated with the automated
mail processing of letters. This audit addresses operational risk associated with
address quality. See Appendix A for additional information about this audit.

Conclusion

We believe the U.S. Postal Service has an opportunity to improve UAA reporting
metrics and streamline UAA mail workflow. We recognize there are inherent limitations
in the logistics of moving the mail, which results in UAA mail. However, the Postal
Service does not have consistent reporting capabilities that provide a reliable count of
UAA mail. Additionally, there are systemic issues in the Postal Automated Redirection
System (PARS) pertaining to imaged mailpieces as they are processed. Finally,
personnel handling UAA mail were not sufficiently trained; therefore, there are
inconsistencies in the handling of UAA mail. Improved metrics, a streamlined UAA mail
workflow, and sufficient training will result in a reduced volume and handling of UAA
mail, which will improve customer service1 and lower overall costs.2 We will report the
1
  Initiatives aimed at expanding and improving the quality of and access to products and services that serve the entire
spectrum of the Postal Service customer base.
2
  We are not claiming monetary benefits due to the low statistical confidence level and precision rate of the sample
when projected nationwide.
Address Quality                                                                                 IS-AR-09-007



non-monetary impact for improvements in customer service in our Semiannual Report
to Congress.

Undeliverable As Addressed Reporting Capabilities

The Postal Service does not have a consistent UAA reporting mechanism and,
therefore, cannot determine the amount of UAA mail it processes. Best practices3
suggest it is important to verify and validate data collected for reporting. In addition,
accountability requires reporting that is timely, accurate, and complete.4 The Postal
Service relies on data sets generated by PARS to measure the amount of UAA mail
processed. However, the multiple reports generated from PARS data sets5 are
inconsistent and are not reconciled; therefore, the data reported is unreliable. As a
result, management does not have accurate counts, trends, and cost estimates for UAA
mail. See Appendix B for our detailed analysis of this topic.

We recommend the Senior Vice President, Intelligent Mail and Address Quality,
collaborate with the Vice President, Engineering, and Vice President, Network
Operations, to:

1. Develop a reporting mechanism that will provide consistent, reliable, and
   measureable counts of automated undeliverable as addressed mail processed by
   the Postal Automated Redirection System to enhance trend analysis, reconcile the
   count of undeliverable as addressed mail, and identify cost reduction opportunities.

Management’s Comments

Management agreed with our recommendation and took corrective action by reviewing
the different reports that measure UAA mail volume. Management concluded that the
UAA data reported by Intelligent Mail and Address Quality (IMAQ) is the appropriate
representation of UAA mail volume. Management will redefine the term “UAA” as
currently described in other reports to reduce the potential for confusion. The IMAQ
group will be responsible for providing the official count of UAA mail for trend analysis
and cost reduction purposes. Management provided the latest UAA mail volume report.
Management believes action on this recommendation is complete and therefore
considers the recommendation closed. See Appendix D for management’s comments
in their entirety.




3
  The Performance Based Management Handbook Volume 1, Establishing and Maintaining a Performance Based
Management Program, Section V, Step 4, Oak Ridge Associated Universities, September 2001.
4
  The Performance Based Management Handbook Volume 3, Establishing Accountability for Performance, Section 1.
5
  We used the PARS Combined Input/Output Sub-System label mode reports, PARS Mail Item Retrieval System
report, and PARS Redirection Image Controller reports from the first 6 months of FY 2009.




                                                      2
Address Quality                                                                                            IS-AR-09-007




Evaluation of Management’s Comments

The U.S Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation. Based on our review of the IMAQ UAA
Mail Volumes report, we concur that management’s corrective actions will resolve the
issues identified in the finding and are sufficient to close the recommendation.

Re-Handling and Re-Processing Mailpieces

We found an excessive amount (approximately 30 percent)6 of mailpieces that required
re-handling and re-processing.7 This includes mailpieces that require a second pass
through PARS,8 as well as mail requiring manual intervention. For example:

        Intercepted Mailpieces. The Postal Service is exceeding the accepted
         tolerance levels set for the interception of mailpieces without a valid change of
         address (COA) on record. Our results indicate that approximately 5 percent9 of
         intercepted mailpieces did not have a valid COA on record. The PARS
         statement of work states the total number of intercepted mailpieces without a
         COA on record should not exceed 1 percent. The higher percentage occurred
         because PARS intercepts the mailpieces based on a potential match with a COA
         on record; however, based on the conservative matching logic, the match is
         inexact and PARS forwards the mailpiece to the carrier for final disposition.

        Finalization of Mailpieces. The Postal Service did not ensure the finalization of
         mailpieces10 in a timely manner. Postal Service policy11 states that employees
         must process12 UAA mail within 24 hours of receipt. At the time of our audit, the
         Postal Service had not finalized over 6 percent13 of the sample mailpieces we
         reviewed. This occurred because neither PARS nor personnel processing UAA
         mail were able to determine certain data elements of the mailpiece preventing
         finalization. For example, the image of a mailpiece may be hard to read, making
         finalization difficult.

        No Record on File. Clerks and carriers were attempting to forward mailpieces
         without a valid COA on file. The PARS training guide14 states that clerks/carriers
6
  All categories combined, 29.64 percent +/-3.38, 95 percent confidence level, projected nationwide.
7
  This includes, but is not limited to mailpieces not finalized, rejected for any reason, or not processed correctly based
on existing business rules.
8
  Mail that requires – through normal processing operations – additional processing in PARS for finalization and
processing to final destination.
9
  Our results showed 4.89 percent +/- 2.94, 95 percent confidence level, projected nationwide.
10
   There was no result type for the mailpiece in the Remote Performance Diagnostic Server system.
11
   Postal Operations Manual, Issue 9, Section 681.6.
12
   Processing means imaged, labeled, and sent forward to destination.
13
   Our results showed 6.31 percent +/-2.04, 95 percent confidence level, projected nationwide.
14
   Postal Automated Redirection System Delivery Unit Clerk/Carrier Training, Lesson 6.




                                                            3
Address Quality                                                                                           IS-AR-09-007



         must ensure there is an active COA on file for any mail that needs to receive
         forward processing. However, we found that more than 13 percent15 of
         mailpieces returned to the processing and distribution center (P&DC) for
         forwarding did not have a valid COA on record. This occurred because
         management has not sufficiently trained clerks and carriers in the proper
         handling of UAA mail. Consequently, delivery unit clerks and carriers are
         inconsistent in their handling methods.

In addition, we found that PARS:

        Rejected16 double-fed or mis-faced17 mailpieces or required mailpieces to be
         rescanned.18

        Did not process the mailpiece correctly based on the ancillary endorsement on
         the mailpiece.19

        Finalized the mailpiece as a reverse-side scan in an attempt to gain more
         information. However, all data fields needed for forwarding were complete;
         therefore, PARS did not need to obtain any more information.

        Did not recognize a valid COA on file and forwarded the mailpiece as addressed.

        Read the sender’s address as the receiver’s address or vice versa.

The extra handling of mailpieces results in delayed mail processing, which affects
customer service and increases costs. See Appendix B for our detailed analysis of this
topic.

During the first 6 months of fiscal year (FY) 2009, we estimate the Postal Service
incurred imputed costs of $1,985,066 for re-handling and re-processing UAA mail
associated with these specific issues.20 See Appendix C for our cost analysis of UAA
mail associated with these specific issues.




15
   Our results showed 13.28 percent +/-4.66, 95 percent confidence level, projected nationwide.
16
   Generally, PARS rejects mailpieces based on the camera capturing a blank or unreadable image.
17
   Combined Input/Output Sub-System-fed mailpieces resulted in PARS taking an image of the wrong side.
18
   All categories combined, 46.7 percent of the re-handled and re-processed mailpieces were rejects, mis-faced or
double-fed.
19
   A mailer’s ancillary endorsement instructs the Postal Service regarding a mailpiece's appropriate disposition upon
determining that it is UAA.
20
   The total imputed cost for re-handling and re-processing mail includes the costs relating to mailpieces that were
incorrectly intercepted, not finalized, or no record on file. In addition, there are other areas reported as mailpieces
needing to be re-handled and re-processed; however, we did not impute those costs due to the negligible amounts.




                                                           4
Address Quality                                                                IS-AR-09-007




We recommend the Vice President, Engineering:

2. Analyze existing standards to ensure metrics are meeting the current tolerance
   levels and adjust the matching logic within the Postal Automated Redirection System
   as deemed necessary.

Management’s Comments

Management agreed with our recommendation and stated that they currently have
processes in place to continuously analyze and improve system performance.
Management also asserts that, as standard practice, they analyze key performance
metrics and adjust matching logic to maximize savings. Management does not agree
with the report findings contending a 5 percent intercepted mail error rate. Rather,
management believes they meet and exceed the system performance criteria for
intercepted mailpieces, and states that the OIG sample results exceed their own testing
results. Management considers the recommendation closed.

Evaluation of Management’s Comments

The OIG considers management’s comments partially responsive. While we recognize
the Postal Service has practices in place to monitor and analyze system performance,
the results of our audit did show an error rate of approximately 5 percent for intercepted
mailpieces without a valid COA on record. These results indicate the potential for
improved system performance, as well as cost savings. As with any sample,
management can expect different samples to yield different results. With anticipated
UAA processing expenditures over $1 billion for FY2009, we encourage management to
take a fresh look at the existing standards and matching logic to ensure optimum
performance.

3. Investigate and correct the Postal Automated Redirection System’s systemic issues
   contributing to undeliverable as addressed mail including, but not limited to:

          Handling rejects, double-feeds, mis-faced, and rescans.
          Processing mail with ancillary endorsements.
          Handling mailpieces needing a reverse-side scan.
          Recognizing a valid change of address on file.
          Recognizing the sender’s and receiver’s addresses correctly.

Management’s Comments

Management agreed with our recommendation. Management already has a process in
place to continually examine PARS for systemic issues contributing to UAA mail and for
implementing changes that improve system performance. Management contends that
their current methods for re-processing (rehandling) of mailpieces such as double-



                                            5
Address Quality                                                                  IS-AR-09-007



feeds, rescans, and reverse side processing are cost-effective and ensure the highest
quality and adherence to service standards. Management considers the
recommendation closed.

Evaluation of Management’s Comments

The OIG considers management’s comments partially responsive. We understand the
deployment of PARS has resulted in significant benefits to the Postal Service that
include improved customer service and cost savings. We understand the intended
design of PARS and respect the complexity of the system. However, our audit identified
specific areas where management may further improve service and maximize savings.
Therefore, we encourage management to explore additional ways to improve system
performance to maximize cost savings.

We recommend the Vice President, Network Operations:

4. Analyze, identify, and correct specific contributors resulting in the non-finalization of
   mailpieces in a timely manner and produce metrics that show improved timeliness of
   automated mail processing.

Management’s Comments

Management agreed with our recommendation and will ensure all plants with PARS
operations receive instructions on timely processing of all PARS mail. Management will
also reinforce the correct reporting of PARS mail through the Mail Condition Reporting
System (MCRS). Area PARS coordinators will monitor timely PARS processing at their
plants through MCRS and intervene at plants with persistent delayed PARS operations.
Management reinforced the PARS mail processing policies during the Area PARS
Coordinators meeting on July 8, 2009. Management will establish a policy by
July 31, 2009 requiring Area PARS Coordinators to monitor the MCRS reports and take
action as necessary to ensure proper MCRS reporting and timely processing of PARS
mail at all plants.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
planned actions will resolve the issues identified in the report.

We recommend the Vice President, Delivery and Post Office Operations, and Vice
President, Network Operations:

5.      Develop and execute a written plan to ensure clerks and carriers are provided
     periodic training in the proper handling of undeliverable as addressed mail.




                                             6
Address Quality                                                               IS-AR-09-007




Management’s Comments

Management agreed with our recommendation. Delivery and Post Office Operations
will update training for clerks and carriers on the proper handling of UAA mail by
August 30, 2009. To ensure mail-processing clerks and non-bargaining employees
receive periodic training in PARS operations, Network Operations will develop a written
plan for both interim and long-term by July 31, 2009. Management has targeted
January 31, 2010 for execution of the plan and completion of the training.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
planned actions will resolve the issues identified in the report.

The OIG considers recommendation 1 significant. We concur that management’s
corrective actions to date are sufficient to close the recommendation. Therefore, the
Postal Service can close this recommendation in their follow-up tracking system.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Frances E. Cain, Director,
Information Technology, or me at (703) 248-2100.


   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E. Benjamin Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

cc: Alice M. VanGorder
    James D. Wilson
    Annette P. Raney
    John W. Brown
    David E. Williams
    James W. Kiser
    Katherine S. Banks




                                           7
Address Quality                                                                                      IS-AR-09-007



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

UAA mail consists of forwarded, returned to sender, or waste/dead mail. PARS handles
UAA mail by imaging, labeling, and processing it for delivery. The objective of PARS is
to identify and redirect UAA mail at the point-of-origin instead of its destination. This
provides savings to the Postal Service through a reduction in re-handling and
processing time associated with handling redirected mail. There are three mail streams
for PARS:

     1. Interception – mail the Postal Service confirms as UAA through normal mail
        processing operations.

     2. Carrier Identified Forwarding – mail in which the carrier at the delivery unit has
        knowledge that the customer has moved and for which there is a valid COA on
        file. The carrier then sends this mail back to the P&DC for processing and
        forwarding to the customer’s new address.

     3. Return to Sender – mail that falls in the category of Attempted Not Known, In
        Dispute, Insufficient Address, Illegible, No Mail Receptacle, No Such Number, No
        Such Street, Refused, Temporarily Away, Unclaimed, Unable To Forward, or
        Vacant.

The Postal Service committed to reducing the 2004 cost of UAA mail by 50 percent by
2010.21 In FY 2008, the Postal Service processed 3.33 billion pieces22 of UAA mail
costing over $1 billion.23 In the first 6 months of FY 2009, they processed 1.67 billion
pieces of UAA mail. If these trends continue, the Postal Service will spend over $1
billion again for processing UAA mail in FY 2009.24

The Postal Service is continually increasing its effort to improve the percentage of
deliverable mail and, therefore, has updated the Move Update standard.25 The Move
Update standard ensures mailers26 have the most up-to-date address information. The
Postal Service requires mailers to use the Move Update standard if they wish to claim
presorted or automation discount rates for First-Class Mail® or standard mail. If mailers
fail to update their address information, the mail stream will contain mailpieces with
incorrect or improperly formatted addresses and could result in UAA mail.
21
   The 2004 cost of UAA mail data was not available for inclusion in this report.
22
   Only includes automated processing of letter mail. Does not include mail processed by the computerized
forwarding service center, which processes flats, periodicals, and packages.
23
   We obtained this information from the National Customer Support Center based on their analysis of data from
PARS. The information in the reports is not consistent; therefore, we are using the information for informational
purposes only.
24
   We base this on our analysis of the National Customer Support Center’s metrics.
25
   The Move Update standard is a means of reducing the number of mailpieces in a mailing that require forwarding or
return by matching a mailer's address records with Postal Service address records.
26
   Mailers represent a body of customers/businesses who receive discount rates for bulk mailings.




                                                         8
Address Quality                                                                                  IS-AR-09-007




OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate UAA mail to identify primary contributors and causes. We
focused exclusively on internal contributors and causes of UAA mail and limited our
scope to automated UAA mail, excluding mail processed manually by the Computerized
Forwarding System centers.

To accomplish our objective, we reviewed documentation and available policies and
procedures, interviewed key officials, and examined other material deemed necessary
to accomplish our objective. We visited local P&DCs to obtain needed information and
then expanded our focus to other areas nationwide. We also obtained documentation
and reports for analysis and conclusions. In order to obtain the metrics of UAA
mailpieces processed, we analyzed several different reports27 obtained from PARS
data.

We obtained a random sample of 24 P&DCs28 and captured up to 15 images from the
three different categories of UAA mail for each P&DC, giving us a total of 999 images.29
We used the Remote Performance Diagnostic System to obtain our sample images.
Using two-stage attribute sampling, we analyzed 999 images obtained from the 24
P&DCs. Then using the statistical model, we determined the ratios and percentages
where our sample contained these specific attributes and the associated precisions and
confidence intervals. See Appendix C for additional information.

We conducted this performance audit from November 2008 through July 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on June 3, 2009, and included
their comments where appropriate.




27
   We used the Combined Input/Output Sub-System label mode reports, PARS Mail Item Retrieval System report,
and PARS Redirection Image Controller reports from the first 6 months of FY 2009.
28
   Universe included all PARS implemented P&DCs with a Combined Input/Output Sub-System machine.
29
   Categories included Intercept, Carrier Identified Forward, and Return to Sender.




                                                      9
Address Quality                                                                                        IS-AR-09-007




                                APPENDIX B: DETAILED ANALYSIS

Undeliverable As Addressed Reporting Capabilities

In our attempt to obtain a count of UAA mailpieces processed, we were unable to
reconcile data from several different reports generated from data sets within PARS.
The PARS data sets measure many different metrics within the system. Address
Management and other operations generate reports from these data sets and rely on
this information to measure the amount of UAA mail. Each of these reports pull from
different data sets and the various measures are inconsistent and unreliable. For
example, the total amount of UAA mailpieces on different reports can differ as much as
20 percent. As a result, it is difficult to accurately measure the amount of UAA mail.
Since Address Management cannot validate the numbers retrieved from PARS, there is
no confidence in the reporting. Reliable and accurate reporting will provide
management with better performance results and, therefore, a solid baseline for making
informed decisions about actions to take to address this costly issue.

Re-Handling and Re-Processing Mailpieces

Postal Service customers expect timely, reliable, and accurate delivery services. The
Postal Service is committed to reducing the cost of processing UAA mail by 50 percent
by 2010 while providing excellent customer service. Incorrectly processed, rejected,
double-fed, mis-faced or re-scanned mailpieces require costly re-handling or re-
processing. If the Advanced Forwarding Reader30 (AFR) and remote encoding center31
(REC) cannot determine the data elements of a mailpiece, it will be rejected and output
to a “special bin” on the machine, which collects this type of mail. The mailpiece will be
re-run through PARS or handled manually for further processing. Almost 30 percent of
UAA mail across all categories needed re-handling or re-processing. Of this 30 percent,
47 percent needed re-processing because PARS rejected, or double-fed mailpieces or
mailpieces were mis-faced or required a rescan.

     Intercepted Mailpieces. PARS incorrectly intercepted approximately 5 percent32 of
     mailpieces.33 When PARS intercepts a mailpiece, it is because PARS, after
     searching the COA database, determined there was a potential COA on record for
     that mailpiece. However, based on the conservative matching logic used, the COA
     is an inexact match and PARS sends the mailpiece to the carrier for delivery as
     addressed. If the COA is not an exact match, the Postal Service wants to ensure it
     does not forward the mailpiece incorrectly. For example, the COA on record could
     be for a “Jane Doe at 123 Main Street,” but the mailpiece is addressed to “Jane P.
30
   The AFR reads address information from mailpieces and their images.
31
   If the system cannot verify the delivery point information, it forwards the imaged mailpiece to the REC where an
operator performs a keying function to determine delivery point information. When the REC operator completes the
address recognition function, they return the image result to PARS to determine the UAA status of the mailpiece.
32
   Our results showed 4.89 percent +/- 2.94, 95 percent confidence level, projected nationwide.
33
   Mailpieces intercepted through PARS but without a valid COA on record.




                                                         10
Address Quality                                                                                      IS-AR-09-007



     Doe at 123 Main Street.” Because it is not an exact name match, the Postal Service
     will send the mail to the address on the mail piece and allow the carrier to return for
     forwarding, if needed. We found that PARS intercepted almost 5 percent of
     mailpieces incorrectly, delaying their processing.

     Finalization of Mailpieces. After PARS images a mailpiece, the AFR determines
     the address and additional information necessary to forward the mailpiece to its
     destination. If the AFR cannot determine some of the information, it will forward the
     image to personnel at the REC for verification. Once finalized, the mailpiece will be
     labeled and sent on to its destination. Finalization and labeling can only happen if
     the AFR or REC can determine the data elements of the mailpiece. Generally, the
     mailpieces are imaged during one tour and labeled on the following tour, allowing for
     analysis and finalization of the mailpiece before labeling. Images for non-finalized
     mailpieces need to be re-processed within 72 hours or the image and data will
     timeout on the PARS system. If the mailpiece cannot be finalized in a timely
     manner, it will have to be re-processed or handled manually, further delaying its
     arrival and adding to the cost. We found that 6 percent of UAA mail did not result in
     finalization at the time of our analysis and required re-handling and re-processing.

     No Record on File. Management did not sufficiently train all personnel in the
     handling of UAA mail. Our visits to delivery units revealed there are delivery unit
     inconsistencies among clerks and carriers regarding the handling of Carrier
     Identified Forward and no record mail. According to policy,34 the Postal Service
     automatically generates a Postal Service (PS) Form 3982 label35 when a customer
     files a COA. The computerized forwarding system provides the label to the
     customer’s carrier, notifying the carrier that the customer has a COA on record. The
     carrier returns the mailpieces to the P&DC based on the carrier’s knowledge of the
     customer. Of these, 13 percent did not have a valid COA on record and the carrier
     should not have sent the mailpiece to the P&DC for forwarding.




34
  Postal Automated Redirection System Delivery Unit Clerk/Carrier Training, Lesson 4
35
  PS Form 3982, Carrier Notification of a Customer Move, is a reference for customer removals from the route so
carriers can set aside the mail for these customers for forwarding.




                                                        11
Address Quality                                                                                    IS-AR-09-007




        APPENDIX C: SAMPLING METHODOLOGY AND COST ANALYSIS OF
                    UNDELIVERABLE AS ADDRESSED MAIL

Purpose of the Sampling

Our objective was to evaluate UAA mail for identifying primary contributors and causes.
In support of this objective, we selected a random sample of 24 P&DCs, collecting
imaged mailpieces to analyze and conclude on potential contributors and causes of
UAA mail.

Definition of the Audit Universe

The audit universe consisted of 152 P&DC sites containing PARS enabled Combined
Input/Output Subsystem machines nationwide as of March 2, 2009. From these sites,
we randomly selected 24 P&DCs and obtained 999 sample images: 348 from Intercept;
318 from Carrier Identified Forward; and 333 from Return to Sender categories.

Sample Design and Modifications

Based on the decision to use a 2-stage unrestricted attribute sample, we randomly
selected up to 15 images from three categories for 24 P&DC sites. If the site did not
contain all 15 of the selected image numbers, we captured as many of the images the
site had within our selected image numbers.

Statistical Projections of the Sample Data

To determine the contributors and causes of UAA mail, we analyzed the sample images
using questions developed from Postal Service business rules. After analyzing each
individual imaged mailpiece, we concluded on potential contributors and causes and
used a statistical model to calculate our percentages in these areas. We calculated the
cost of affected mailpieces by using a conservative estimate of UAA mailpieces during
the first 6 months of 2009.

The following table presents a conservative estimate of the imputed costs the Postal
Service incurs for the re-handling and re-processing of the UAA mail. We used an
estimate of UAA mailpieces processed and cost per piece for re-handling and re-
processing the mail. From October 2008 through March 2009, the Postal Service
processed over 1.67 billion pieces of automated UAA mail.36 The automated cost of
processing this mail is $4 per 1000 pieces, which equates to $.004 per piece to re-



36
  This number was obtained from the PARS Redirection Image Controller Reports from October 2008 through March
2009. The number only includes automated processing of letter mail, not periodicals or packages processed through
computerized forwarded system center.




                                                       12
Address Quality                                                                                        IS-AR-09-007



handle and re-process.37 We are not claiming monetary benefit due to the low statistical
confidence level and precision rate of the sample when projected nationwide.

                  COST ANALYSIS OF UNDELIVERABLE AS ADDRESSED MAIL

                                                                                   Per Piece
                                                              Total Number                           Total Cost to
                     Total Number       Percentage of                               Cost To
                                                               of Affected                          Re-handle and
     Finding            Of UAA          Sample Pieces                              Re-handle
                                                                  UAA                                 Re-process
                      Mailpieces          Affected                                  and Re-
                                                               Mailpieces38                           UAA Mail39
                                                                                    process
Re-Handling
and Re-
                     1,674,313,192           29.64            496,266,430              0.004           $1,985,066
Processing
Mailpieces
Incorrectly
Intercepted in       1,674,313,192           04.89              81,873,915             0.004               $327,496
PARS

Finalization of
                     1,674,313,192           06.31            105,649,162              0.004               $422,597
Mailpieces
No Record On
                     1,674,313,192           13.28            222,348,792              0.004               $889,395
File


The total imputed cost for re-handling and re-processing mail includes the costs relating
to mailpieces that were incorrectly intercepted, not finalized, or no record on file. In
addition, there are other areas reported as mailpieces needing to be re-handled and re-
processed; however, we did not impute costs or include these areas in the above table
due to the negligible amounts.




37
   Numbers taken from the Postal Service Re-Handling of Mail Pieces Best Practices.
38
   Total number of UAA mailpieces multiplied by the percentage of sample pieces affected.
39
   Total number of affected UAA mailpieces multiplied by the per piece cost to re-handle and re-process.




                                                         13
Address Quality                                       IS-AR-09-007



                  APPENDIX D: MANAGEMENT’S COMMENTS




                                 14
Address Quality        IS-AR-09-007




                  15
Address Quality        IS-AR-09-007




                  16
Address Quality        IS-AR-09-007




                  17
Address Quality        IS-AR-09-007




                  18
Address Quality        IS-AR-09-007




                  19
